<html>
<title> - [H.A.S.C. No. 115-49] Ground Force Modernization Budget Request</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                        [H.A.S.C. No. 115-49]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

               GROUND FORCE MODERNIZATION BUDGET REQUEST

                               __________

                              HEARING HELD
                              MAY 24, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-871 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c1d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a>   


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     (Vacancy)
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Murray, LTG John M., USA, Deputy Chief of Staff of the Army, G-8; 
  and LTG Paul A. Ostrowski, USA, Military Deputy to the 
  Assistant Secretary of the Army (Acquisition, Logistics and 
  Technology)....................................................     4
Thomas, LtGen Gary L., USMC, Deputy Commandant for Programs and 
  Resources; and BGen Joseph Shrader, USMC, Commanding General, 
  Marine Corps Systems Command...................................     5

                                APPENDIX

Prepared Statements:

    Murray, LTG John M., joint with LTG Paul A. Ostrowski........    23
    Thomas, LtGen Gary L., joint with BGen Joseph Shrader........    34
    Turner, Hon. Michael R.......................................    21

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Banks....................................................    55
    Mr. Bishop...................................................    56
    Mr. Brown....................................................    54
    Ms. Tsongas..................................................    53
    Mr. Turner...................................................    53
    Mr. Wittman..................................................    56
            
.           
              GROUND FORCE MODERNIZATION BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Wednesday, May 24, 2017.
    The subcommittee met, pursuant to call, at 3:36 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing will come to order. The 
subcommittee meets today to review the Army and Marine Corps 
ground force equipment modernization budget request for fiscal 
year [FY] 2018. From our previous hearings held in March, we 
are aware that the Army and Marine Corps continue to face 
significant challenges in rebuilding full-spectrum readiness 
from years of deferred modernization funding.
    We are particularly interested in understanding how this 
budget request will begin the process of reversing the trend in 
deferred modernization funding. I would like to welcome our 
guests representing the Army and Marine Corps: Lieutenant 
General John M. Murray, Deputy Chief of Staff, G-8; Lieutenant 
General Paul A. Ostrowski, Military Deputy to the Assistant 
Secretary of the Army (Acquisition, Logistics and Technology); 
Lieutenant General Gary L. Thomas, Deputy Commandant for 
Programs and Resources; Brigadier General Joseph Shrader, 
Commanding General, Marine Corps Systems Command. Thank you 
each for your dedicated service and for being here today.
    Today the subcommittee will review the broad portfolio of 
ground force equipment modernization programs and their 
associated acquisition strategies. We expect to gain a better 
understanding of Army and Marine Corps modernization priorities 
in fiscal year 2018 and beyond. As such, the witnesses have 
been asked to identify their top five modernization 
requirements and briefly summarize how the budget request 
addresses them.
    The subcommittee will be particularly interested in 
learning of any unfunded requirements the Army and Marine Corps 
may have for fiscal year 2018. Yesterday, the administration 
released its budget request for the Department of Defense [DOD] 
that amounts to a $603 billion top line. Since we just received 
the request, we are still in the early stages of reviewing the 
specifics of the budget request, which makes this hearing so 
timely.
    As I have stated at previous hearings, I support the 
President's commitment to rebuilding the military. However, I 
am concerned that the current budget request does not go far 
enough. I support Chairman Thornberry's statement, ``The 
administration's budget proposal for defense is not enough to 
do what the President said he wants to do. In order to begin to 
repair the damage that has been done to readiness, and to build 
the capacity needed for today's dangerous world, we believe 
that $640 billion is required for fiscal year 2018.''
    A topline budget of $603 billion for defense in fiscal year 
2018 really only represents 3 percent growth above President 
Obama's projected budget request for fiscal year 2018 from last 
year. To be fair enough, it does appear that the Army's 
modernization request (procurement, RTD&E [research, testing, 
development, and evaluation]), and the Marine Corps ground 
equipment procurement request do provide for some improvement 
over fiscal year 2017 projected levels. The problem is that due 
to multiple years of underfunding and reduced budgets, these 
relatively modest increases aren't enough to actually reverse 
the damage that has been done.
    For example, the request provides the funding necessary to 
modernize about half of one [armored] brigade combat team, 
meaning that the Army is on a path to fully modernize all of 
their armored brigade teams by 2035, which is a problem.
    Finally, I continue to have concerns that we are losing our 
comparative advantage in ground combat overmatch against near-
peer and peer competitors. Legacy combat vehicle platforms in 
some cases are nearing the 40-year mark in terms of service, 
and I am concerned that these vehicles are reaching limitations 
in terms of capability.
    So I am particularly interested in understanding how this 
budget request begins to address next generation combat vehicle 
systems. And I would like to recognize my good friend, Niki 
Tsongas.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 21.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman, and good afternoon.
    I look forward to discussing the budget for both the Army 
and Marine Corps with our witnesses here today, and I thank you 
for being here. But first, I would like to address concerns I 
have with the approach taken by the broader Federal budget 
released just yesterday. The fiscal year 2018 President's 
budget prioritizes defense spending at the expense of other 
national priorities, like education, infrastructure, and 
economic development.
    Of particular relevance to our discussion here today, the 
budget also makes deep cuts to the State Department and USAID 
[United States Agency for International Development], to 
international security assistance programs that provide defense 
equipment and training to our partners abroad, and to the 
Treasury's office responsible for combatting terrorist 
financing, just to name a few. And these cuts are even more 
pronounced over a 10-year period.
    Increasing defense spending at the expense of these other 
critical programs will not only make us less safe, but will 
undermine important investments key to our national 
competitiveness and our long-term security. With that in mind, 
today's hearing is the first chance the subcommittee has to 
review the Army and Marine Corps fiscal year 2018 budget 
request. The delay in completing the budget does put pressure 
on us to get as much information today as possible, given the 
short time available before consideration of the 2018 NDAA 
[National Defense Authorization Act] next month. And there are 
a few points I would like to make.
    First, the 2018 budget request for Army and Marine Corps 
modernization accounts do appear to show modest growth in 
comparison to the final 2017 figures for both services; 
welcomed news given the services' modernization needs, but I 
hope to hear today how you both plan on using the additional 
funding to both expand current programs and set the stage for 
the future by starting some new ones.
    Research, development, test, and evaluation accounts seem 
to have also grown at a modest level. I have been worried for 
some time by the rapid decline in R&D [research and 
development] funding, especially for the Army, which over the 
past few years has reached troublesome lows. I hope to hear 
more today about both new development programs and expanded 
research in the science and technology, or S&T, accounts.
    The second broad issue I wanted to touch on is the 
importance of keeping a focus on improving personal protective 
equipment, like body armor, helmets, and related materials. 
Both services continue to make substantial investments and 
field new equipment, which is encouraging. I think this is both 
the smart thing to do, but also the right thing to do, given 
the risks that members of our military take every day. The cost 
of these programs in comparison to the billions needed for 
tanks or helicopters is relatively small, but should be 
protected and expanded.
    A final point I wanted to make was about the importance of 
competition. A series of laws, Executive orders, and subsequent 
regulations make full and open competition the standard method 
for acquisition of equipment by the military services. That was 
done in the taxpayers' interest to ensure fairness, reduce 
costs, increase transparency, and foster a healthy defense 
industrial base.
    However, we all know that the competition process usually 
does take more time than doing a sole-source award. For me, 
that tradeoff, a more time-consuming process, is worth it, 
except in cases of true emergency combat needs or when optimal 
products already exist in the commercial sector, situations 
which have prompted the congressional defense committees to 
craft needed workarounds.
    So as both services make use of the exceptions to 
competition that the law allows, I would caution that it be 
done thoughtfully, carefully, and only in the case of true 
urgency. The overarching goal should be to both achieve the 
benefits of competition and to ensure that the flexibility 
currently enjoyed by the military services is preserved. With 
that in mind, I look forward to today's testimony, and I yield 
back.
    Mr. Turner. Thank you. I understand that General Murray 
will provide the remarks on behalf of the Army and General 
Thomas will provide remarks on behalf of the Marine Corps. 
Before we begin, they have projected votes between 4:05 and 
4:35. And then we are going to have an hour-long vote, and 
after that it is going to be difficult to get members back. If 
we give each of you 5 minutes, if you can shave off a minute or 
two there, we are going to go to 3-minute rounds of questions, 
and I am going to abbreviate mine. And I think we will get 
through everybody if we get to a reasonable time for the votes.
    So with that, gentlemen, please begin. General Murray.

STATEMENT OF LTG JOHN M. MURRAY, USA, DEPUTY CHIEF OF STAFF OF 
THE ARMY, G-8; AND LTG PAUL A. OSTROWSKI, USA, MILITARY DEPUTY 
TO THE ASSISTANT SECRETARY OF THE ARMY (ACQUISITION, LOGISTICS 
                        AND TECHNOLOGY)

    General Murray. And I will read fast, Mr. Chairman, so 
thank you. Chairman Turner, Ranking Member Tsongas, 
distinguished members of the Subcommittee on Tactical Air and 
Land Forces, on behalf of our Acting Secretary, the Honorable 
Robert Speer, and our Chief of Staff, General Mark Milley, we 
look forward to discussing with you the fiscal year 2018 
President's budget request for Army modernization.
    The fiscal year 2018 modernization budget request of $26.8 
<dagger> billion represents a modest increase in modernization. 
Additional funding sustains, but it does not significantly 
advance our modernization efforts. Given today's fiscal 
environment, our modernization strategy remains to focus our 
limited modernization budget on the equipment that will have 
the greatest impact against near-peer threats and can be in the 
hands of our soldiers in the near future.
---------------------------------------------------------------------------
    <dagger> General Murray submitted a correction of his hearing 
statement, changing $27.3 billion to $26.8 billion.
---------------------------------------------------------------------------
    For the past 10 years, we have focused on the immediate, 
providing the equipment necessary for our soldiers to fight in 
Iraq and Afghanistan, along with incremental upgrades to our 
existing combat platforms. That strategy, driven primarily by 
constrained modernization resources, forced us to defer the 
development of new combat capabilities. We have now reached a 
point in time where we can no longer afford to do one or the 
other: improve existing systems or develop new ones. We must 
begin to do both.
    We face critical capability and capacity gaps in areas like 
air and missile defense, long-range precision fires, munitions, 
the mobility protection and lethality of our brigade combat 
teams, and active protection to name just a few. We must begin 
to fill these gaps if we are to credibly deter, and if 
necessary defeat a near-peer adversary. These are challenging 
times. In the end, the security challenges of tomorrow will be 
met with equipment we develop, modernize, and procure today.
    Because adversaries will continue to invest in technology 
to counter or evade U.S. strengths and exploit vulnerabilities, 
resource insecurity and insufficient force modernization will 
place the Army's ability to overmatch its opponents at risk. We 
owe our future soldiers the equipment they will need to fight 
and win on a very complex battlefield. We urge Congress to 
provide fiscal stability, funding that is sufficient, 
consistent, long-term, balanced, and predictable, so we can 
maintain our current warfighting readiness while simultaneously 
building a more modern and capable force for the future.
    I would like to thank you and the entire committee for your 
resolute support of the men and women of the United States 
Army, Army civilians, and our families, and I thank you, and I 
look forward to your questions.
    [The joint prepared statement of General Murray and General 
Ostrowski can be found in the Appendix on page 23.]
    Mr. Turner. General Thomas.

STATEMENT OF LTGEN GARY L. THOMAS, USMC, DEPUTY COMMANDANT FOR 
    PROGRAMS AND RESOURCES; AND BGEN JOSEPH SHRADER, USMC, 
        COMMANDING GENERAL, MARINE CORPS SYSTEMS COMMAND

    General Thomas. Chairman Turner, Ranking Member Tsongas, 
and distinguished members of the subcommittee, thank you for 
the opportunity to appear before you today. I am honored to 
represent your Marines and testify on our fiscal year 2018 
ground force modernization program.
    Your Marines continue to be in high demand from all our 
combatant commanders around the world. They are forward-
deployed, engaged on land and sea, and ready for crisis 
response. As a result, we must constantly balance between 
capability and capacity, between current operations and future 
operations, between steady state and surge readiness, as well 
as between low-end and high-end operations and training.
    Our role as America's naval expeditionary force in 
readiness informs how we man, train, and equip our force. It 
also drives how we prioritize and allocate the resources we are 
provided by Congress. While today's force is capable and our 
forward-deployed forces are ready to fight, we have been 
fiscally stretched to maintain readiness across the breadth of 
the force. Our fiscal year 2018 budget request builds on the 
additional funding received in the fiscal year 2017 omnibus 
appropriation and begins the deliberate effort to fix readiness 
for today and tomorrow.
    Modernization is central to addressing near-term readiness 
and foundational to building the Marine Corps of the 21st 
century. It includes replacement of legacy systems with new 
ones, such as the Amphibious Combat Vehicle [ACV], Joint Light 
Tactical Vehicle, the Ground/Air Task Oriented Radar [G/ATOR], 
the Common Aviation Command and Control System, and the CH-53K 
King Stallion; five key modernization efforts supporting how we 
are going to operate, fight in the future.
    Modernization also includes changes to the structure of our 
tables of equipment that we continue to incorporate lessons 
learned from the battlefield into equipment sets that balance 
affordability with the need for a networked, mobile, and lethal 
expeditionary force. And it includes the insertion of 
technology into current capabilities, including such efforts as 
developing active protection systems, long-range precision 
fires, and unmanned aircraft system capabilities.
    The Marine Corps must begin to rebalance and modernize for 
the future, creating a fifth-generation multi-domain force with 
overmatch that can deter and, if necessary, defeat a highly 
capable near-peer adversary. However, an unstable fiscal 
environment creates inefficiencies, disrupts our planning, and 
directly challenges our current and future readiness. With your 
help, we can begin to overcome these challenges and ensure that 
the Marine Corps is well postured for the 21st century.
    Again, thank you for the opportunity to appear before you 
today. I look forward to your questions.
    [The joint prepared statement of General Thomas and General 
Shrader can be found in the Appendix on page 34.]
    Mr. Turner. Excellent. Thank you, gentlemen. Well, to get 
us jump-started, I am going to ask three quick questions that I 
believe you can both answer yes to, which will get us moving. 
And so let's see if I am correct.
    Obviously, we are concerned about the pace of 
modernization. If additional funding were provided, could you 
accelerate armored brigade combat team modernization? General 
Murray.
    General Murray. Absolutely.
    Mr. Turner. General Thomas.
    General Thomas. We could accelerate key modernization 
programs, yes.
    Mr. Turner. Great. Second yes question. In your 
professional opinion, are changes to the current cluster 
munitions policy required to address current Army requirements 
and emerging threats? General Murray.
    General Murray. I am not sure I completely understood the 
question, Chairman.
    Mr. Turner. We are very concerned about the policy 
concerning cluster munitions, which is going to impact your 
operations, your ability to utilize them. In your professional 
opinion, does that current policy need to be changed to be able 
to give you, as you look to requirements and emerging threats.
    The second part of this--and I will just go ahead and tell 
you--is would the loss of the ability to use cluster munitions 
create an unacceptable capability gap for land component area 
effects, particularly in major combat operations against near-
peer or near-peer-equipped opponents?
    General Murray. The answer to the second one is absolutely. 
It is a critical operational capability that goes away on 1 
January 2019. The answer to the first one, Mr. Chairman, is I 
think we have to at least look at it and consider it.
    Mr. Turner. General Thomas.
    General Thomas. We would advocate a change. The DPICM 
[Dual-Purpose Improved Conventional Munition] capability is 
very important to our force and to replace that capability is 
going to take a lot more time and a lot more money.
    Mr. Turner. Great, thank you. Ranking Member. And you 
should have a clock on me.
    Ms. Tsongas. Thank you. Thank you, Mr. Chairman. I am 
pleased that both services have ongoing efforts to improve the 
fit and function of female personal protective equipment, as 
the number of women serving in both the Army and Marine Corps 
continues to increase, and it is something we talk about often 
here.
    But I am somewhat concerned that the two services are 
headed in different directions. My understanding is that the 
Marine Corps is making improvements aimed at making sure that 
marines of all statures are equipped with appropriately fitted 
plates. While that is important, appropriately sized plates are 
but one component of a system aimed at making sure women have 
equipment designed specifically to improve protection and range 
of motion.
    The female improved outer tactical vest is an important 
example of how the Army is working to ensure that women have 
body armor with the appropriate form, fit, and function. So my 
concern is that the two services, while arguably trying to do 
what they think is right, are diverging in their approaches 
where there may be a great deal to be gained by a joint effort.
    So, General Ostrowski and General Shrader, would you both 
talk about what you are doing in this area within your services 
and how it differs from the other service and why that is the 
case? So, General Ostrowski.
    General Ostrowski. Ma'am, thank you for the question. I 
will tell you that I think you are very well aware that the 
Army has not only sized body armor for our males, 11 different 
sizes, but also for our females, 11 separate sizes with respect 
to body armor.
    In addition to the five torso and three side plates, in 
terms of different sizes that we have had in the past, we have 
added an additional three torso plates, as well as an 
additional smaller side plate in order to address additional 
concerns with respect to our female soldiers.
    Our next-generation soldier protection system, which will 
consist of about 121,000 systems for the folks, our soldiers 
that are on the leading edge in terms of engaging with and 
closing with the enemy in a close fight, will also include 
sizing for women. This is important based on where we have gone 
in terms of the Army and females' ability to serve within our 
infantry and armor forces.
    In addition, we will have eight total sizes for the soldier 
protection system. This sizing is based on human factors 
designed--that we have done in conjunction with the Marine 
Corps; and the eight sizes, again, fit not only our male 
soldiers, but are designed to fit our female soldiers based on 
the addition of the new plates, as well as the scalable torso 
protection system that we have.
    Ms. Tsongas. We will go to General Shrader now, give you a 
quick time to respond. Maybe if you need more time, put it in 
the record later. Go ahead.
    General Shrader. Yes, ma'am. So I think General Ostrowski 
said it exactly what we are doing too--we are working with the 
Army on our new plate carrier that we are getting ready to 
field. As far as the plates are concerned, we are buying the 
same plates as the Army. So, yes, ma'am, we are working with 
the Army and moving forward.
    Ms. Tsongas. Well, the Army has done some wonderful things, 
so not only the outer tactical vests, but they have better 
designed female protective undergarments, ballistic combat 
shirts, and I would encourage the Marines to take a look at 
that full suite of investments.
    Mr. Turner. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. First of all, I want to 
thank the Marine Corps for inviting us to the parade a couple 
of weeks ago. I have not dried out yet. And I have got cases of 
immersion foot and jungle rot, which goes back 50 years ago to 
when I was in Vietnam.
    But anyway, a couple of systems which I am really impressed 
on, the Trophy system that you are looking at that, thank God 
that you are taking a look at that with the development of the 
T90 and everything like that. The Marine Corps I know is 
bringing on the new 81 Mike-Mike mortar, not new, but the 
munitions. Can you just give a quick heads-up on that, what is 
going on, on it?
    General Thomas. Congressman, we are looking at the ACERM 
[Advanced Capability Extended Range Mortar] round, which gives 
you the extended range for the 81-millimeter mortar. That is in 
technical demonstration right now, but we are paying close 
attention to that.
    Mr. Cook. Yeah, as that goes along, I would be really 
interested in that. The other thing I wanted to address real 
quick--and everyone is aware of the RAND study. We are worried 
about long-range fires. The chairman talked about some of the 
things on that.
    We are concerned, at least I am, on HIMARS [High Mobility 
Artillery Rocket System], whether we have enough ammunitions, 
the systems that--you know, that unclassified portion of it, 60 
hours to be in Tallinn or Riga, if you could just briefly, 
anybody, how you looked at that, because I know it has got 
everyone's attention and some of your systems addressing that, 
because I think that is an important part of the budget, the 
way it stands right now.
    General Murray. Yes, sir. So, Congressman, fire structure 
is part of the growth we will experience in 2018, with what we 
were granted, in terms of the growth of the Active Component to 
476 [thousand]. We thank you. It is just not the munitions. It 
is also the HIMARS and MLRS [Multiple Launch Rocket System] to 
shoot it, correct.
    Mr. Cook. Yeah.
    General Murray. And then we have a program going right now 
called long-range precision fires. There is about $102 million 
in the base to take two prototypes into demonstration in 2019. 
In addition to that, we are also SLEPing, service life 
extension program, on our ATACMS [Army Tactical Missile System] 
missile to make sure we have got the inventory. And we are also 
working to double the range of the GMLRS [Guided Multiple 
Launch Rocket System] missile, as well.
    Mr. Cook. Great. I am rushing real quick. By the way, I was 
just out at Fort Irwin. They did a great cyber exercise. Some 
of these kids, I mean, they are right out of Star Wars. They 
are talking about some of the gear coming right off the shelf. 
And very, very impressive.
    The one thing that bothered me a little bit was the MICLIC 
[Mine Clearing Line Charge], the mine going out with--this is 
50 years ago we were doing the same thing with the C4, the det 
cord [detonation cord] that goes out there. Of course, I am 
looking for something much quicker and wondering if there is 
anything in the works. And that is my last question. I yield 
back after that.
    General Murray. There is not anything in the works to 
replace that currently, sir.
    Mr. Cook. Okay, thank you.
    Mr. Turner. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman, and I want to thank 
our witnesses for your testimony. And thank you all for your 
service to the country.
    General Ostrowski, the Army's budget request shows $37 
million for a leader-and-follow ground robotics effort that 
would allow in theory unmanned cargo trucks to follow a single 
truck driven by a soldier. Elsewhere in the budget request is a 
larger $70.8 million effort that is spread across seven 
different projects, including a squad multi-purpose transport, 
which appears to be a small cargo-carrying robot, and the 
common robotic system, which is a man packable, less than 25-
pound ground robot with various sensors, and a soldier-borne 
sensor, which is a very small handheld UAV [unmanned aerial 
vehicle].
    Could you please give us some details on these efforts and 
how they all fit together? And there is rapid progress in the 
commercial world on ground robotics. What year will the Army 
field its next generation of robots like the ones described in 
the research and development request? For example, when would 
the Army field a cargo or intelligence collection ground robot?
    And then, finally, does the Army have any demonstrations 
planned to open up this area to commercial robot companies?
    General Ostrowski. Sir, the Army has got a multifaceted 
approach to getting after ground robotics. And the Chief is 
leading the charge. He is all about ensuring, as we all are, 
that soldiers are not put into harm's way unnecessarily. The 
first of those efforts is the S&T effort that you talked about, 
Leader-Follower, which is in the S&T realm at the Army's TARDEC 
[Tank Automotive Research, Development, and Engineering Center] 
location now. The intent is to create the capability for a 
leader vehicle truck that could be followed by other additional 
carrying capability that will go from port to a base. Again, 
not off-road, but along highways. This takes into account the 
ability for us to use commercial technologies that have been 
developed and to leverage those particular technologies.
    With respect to the SMET [Squad Multipurpose Equipment 
Transport] that you talked about, as well, the squad robotic 
capability, ability to move 1,000 pounds worth of equipment, 
our ability to do that is based on our acquisition strategy of 
going through other transactional authority to get vendors to 
come in to provide papers on how we can get after that 
particular capability, take that down-select to about 10, have 
them provide prototypes, and take those prototypes into test. 
And following the test, we will down-select about four. And 
between the period of 2019 to 2020, we will then place those 
four standard types into the field for evaluations on behalf of 
our soldiers that will lead to a decision by 2020 to make a 
call as to whether to field or not to field that particular 
capability.
    Mr. Langevin. Okay.
    Mr. Turner. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman. First, I am pleased to 
see the Army's request to upgrade the Abrams tanks to the M1A2 
SEPV3 [System Enhancement Package Version 3]. And I understand 
the Army may attempt to accelerate additional upgrades for the 
SEPV4 configuration. That being said, the Abrams tank is now 
approaching 80 tons in gross vehicle weight. And what impact 
does this weight have and are we getting the Mike-88s to make 
sure that we can tow those things and also the things like the 
new JAB [Joint Assault] Bridge that we have been talking about 
since I was a young engineer lieutenant? You know, can our 
bridges, our gap crossing capability support these new 80 tons 
instead of 70?
    General Murray. Yes, sir, so we have got several problems. 
So you have mentioned two of them would be the heavy equipment 
transport, or HETs. So right now, we have got work going on in 
several different paths on the heavy equipment transports. We 
have got a problem in Europe we have got to fix fairly quickly, 
which is one avenue of approach we are taking, and then we are 
also starting the development what we are calling the super HET 
to account for the weight of the tank, which is actually combat 
loaded about 78 tons. So you are correct, approaching 80.
    With the bridges, we have got our engineers doing some work 
right now that it really comes down to the strength of the pins 
and the scissors as the weak point of that bridge. We can cross 
it right now, but only at caution crossing, which is basically 
walking speed. So we are working on the strength of the pins to 
try to save the bridges we have got and then increase the pins 
or increase the strength of the pins. And then you mentioned 
the HERCULES [Heavy Equipment Recovery Combat Utility Lifting 
Extraction System]. We also have an upgrade to the HERCULES in 
works. RTD&E is funding in 2018 and then actually going to 
development of allowing the HERCULES to do a single vehicle 
recovery.
    Mr. Kelly. And I just ask that you pay real close attention 
to that. And we have got to have those upgrades in time to have 
them on the battlefield. And it is not just those force 
multipliers, but it is the things like our ISR [intelligence, 
surveillance, and reconnaissance] capabilities, are we up to 
range? It is the range on our artillery systems and our rocket 
systems as compared to our near-peers. I mean, it is a total 
force and you have got to bring every force multiplier. So I 
just--I ask both the Marine Corps and the Army to make sure 
that we get overmatch, because it is about rate of fire and 
standoff. And if you have got those two things, you win; if you 
don't, you lose. So please focus on that.
    And then the other thing is, for both of you-all, on the 
aviation standpoint, I know the Army and especially the Army 
and the Marine Corps have our ITEP [Improved Turbine Engine 
Program] engines to make sure that we have got the increased 
capabilities for our rotor wing assets. Does that continue to 
be a top priority for both the Army and the Marine Corps?
    General Murray. It does, Congressman.
    General Thomas. Congressman, for the Marine Corps 
perspective, not necessarily the ITEP, but modernization, 
particularly of our heavy lift capability, replacing the CH-53, 
which is rapidly reaching the end of its service life, with the 
CH-53K.
    Mr. Kelly. And thank you, because that engine life and the 
lift power creates both costs, but also life-saving and safety 
issues. And with that, I yield back, Mr. Chairman.
    Mr. Turner. Thank you. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman. We kind of hit on 
this earlier, but I would like to go in a little more in depth 
regarding standoff ground fire capability. It is an area where 
we may be deficient versus our competitors on the Russian side, 
especially when it comes to anti-armor capability. What are the 
Army and Marines doing to consider building the long-range 
ground fires capability? Please include any anti-armor or 
sensor fuse capabilities as part of that answer.
    General Murray. When you say long-range, I assume you are 
talking missile-delivered fires?
    Mr. Gallego. Missile or artillery or----
    General Murray. Okay. So, Congressman, we are working LRPF 
[Long Range Precision Fires], as I mentioned before, targeting 
about 499-kilometer range on that, which is current ATACMS is 
350, limited only to 499 because of the INF [Intermediate-Range 
Nuclear Forces] treaty, and we are working to double the 
payload, so two per pod as opposed to one per pod, which is an 
automatic way of doubling your force structure.
    We are working right now with two foreign governments on 
the potential of buying sensor fused munitions to put on both 
the GMLRS and the ATACMS. And we are working with Dr. Roper and 
the SCO [Strategic Capabilities Office], really, on some cannon 
delivered munitions that would be an effective anti-armor 
capability.
    General Thomas. Congressman, the way that we are getting 
after the long-range precision fire challenges, we are 
increasing capacity. With the growth to 185K [185,000], we are 
going to stand up an additional HIMARS battalion. In the FY 
2018 request, we continue to purchase additional munitions, and 
we work very closely on the innovations that the Army is 
proceeding with that General Murray just described.
    Mr. Gallego. In the meantime, what are the plans to 
maintain and replace the capabilities affected by DOD's cluster 
munitions policy in Europe and other key operational 
environments around the world, or at least temporarily?
    General Ostrowski. Congressman, the plan right now is to 
service life extend our ATACMS missiles from a cluster munition 
back to a unitary. We also have height-of-burst capability that 
we have also proven on that particular missile system and just 
recently tested to good effect. So that is the key thing there.
    With respect to the 155 rounds, our DPICMs, the intent 
there is to, again, use them if we can up until the point of 
time where we can't, and then those will be discarded and 
demilled. We are demilling 155s as we speak, as they have gone 
beyond their shelf life, but the others still remain in our 
inventory and are ready should the policy change or should we 
need them prior to the deadline.
    Mr. Gallego. Lieutenant General.
    General Thomas. We continue to procure GMLRS alternative 
warhead, as to mitigate the challenge that General Ostrowski 
just described, but that is going to take a long time. We 
wouldn't get our full requirement until the mid-2020s.
    Mr. Gallego. Okay. Thank you. I yield back.
    Mr. Turner. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman. I thank all four of you 
for being here. It is great to see my National War College 
classmate there, General Thomas. I was hoping you could give me 
your feedback on this perception. As I look out in our 
acquisition and our modernization, I think that we are going to 
produce future systems that have overmatch in the air domain, 
the sea domain. I think I feel like I could say the same thing 
in the space and cyber domains. But I worry about our land 
domain.
    When I look at the future weapons systems, I see that our 
near-peers are producing stuff that are at parity or in some 
cases exceed when it comes to range, rate of fire, and so 
forth. So is my perception right? Should we be raising the bar 
on what we are going to produce for our soldiers and marines in 
the ground domain? Love to get your feedback.
    General Murray. Yeah, I absolutely agree with you, 
Congressman. And I am--as I said the last time--I am kind of a 
parity type of guy, because it does depend on how you look at 
the system. And Army is absolutely trying to do that. And I 
said in my opening statement the last time and this time is 
that we are now at the point where it is going to be hard to 
upgrade our current combat systems to retain that parity and we 
have got to start looking at what comes next.
    The fundamental issue the Army has is when you look at our 
modernization--we have to prepare--we have to make sure 
soldiers tomorrow have the best equipment we can possibly 
provide them, and we have also got to start looking to the 
future. So you have two different efforts going on. You have 
got upgrading the current equipment and you have got now I 
think some RTD&E started, next generation combat vehicles 
specifically, looking at future generation vehicle.
    You know, I can do RTD&E. The problem comes in procurement. 
I can't begin to buy a new vehicle until I finish upgrading the 
last vehicle, and when you got extended upgrade timelines, it 
becomes one ECP [engineering change proposal] or one upgrade 
after another. So we have got to figure out how to shorten that 
timeline so I can free up the resources to go after the 
procurement of the next generation tank, air defense system, 
infantry fighting vehicle. I mean, there's lots of needs across 
the board.
    General Thomas. Congressman, we would share the concerns 
that you articulated. The Marine Corps, a little bit different 
than the Army, we are a light general purpose force. So we look 
at--much as the Army does, we look at the entire system 
together, which is our overmatch comes by our ability to 
maneuver and the fires that we can bring to bear. That is 
cannon artillery. It is rockets. But it is also aviation. So 
that will continue to be a focus.
    I think much like the Army, we are focused on the 
individual marine and soldier in terms of equipment, and my 
sense is that we are gaining momentum in that particular area. 
Our vehicles are, you know, just very old, and we have got good 
programs in place that meets our mission needs. The issue that 
we have is the good news is we are getting hot lines now. The 
challenges that we face have to do with the speed at which we 
are modernizing that fleet.
    Mr. Bacon. I will just close my comments as I am finished 
with my time here, we want to seek overmatch for our ground 
domain. And if we don't have it, we are going to have to work 
hard. So I would love to get your unfundeds [unfunded 
requirements] and see how we can fight harder to give you that 
overmatch, because parity isn't good enough for our soldiers 
and marines. Thank you.
    Mr. Turner. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair. And thank you all for 
being here today. Lieutenant General Murray, in your written 
testimony, you stress the importance of prioritizing science 
and technology efforts and gaining understanding of state-of-
the-art commercial and academic research in order to field the 
most modern capabilities to the force in the 2030s. I am aware 
that DOD and individual services have a number of research 
partnerships with academic institutions and commercial entities 
to share expertise and coordinate these efforts, research 
efforts.
    Academic institutions, like UC [University of California] 
Santa Barbara and California Polytechnic State University San 
Luis Obispo, currently participate in Army and Air Force 
research partnerships through programs such as the University 
Affiliated Research Center and the Education Partnership 
Agreement program. These programs have helped build 
partnerships between academic institutions, services, and 
industry experts in an effort to engage in advanced research 
ultimately providing our personnel with the best technologies 
and capability.
    Lieutenant Generals Murray and Ostrowski, what resources 
can this committee further provide to help the Army take 
advantage of the research and technology being done in the 
commercial and academic sectors? And lastly, would expanding 
these research partnership programs with academic institutions 
and commercial sectors assist in identifying cutting-edge 
research and technology?
    General Murray. The answer to the first part of your 
question, Congressman, is I think this committee and Congress 
as a whole have made it very clear to us how important S&T 
funding is. And that is why we have not, even in declining 
budgets, reduced our S&T funding.
    So right now, out of our modernization funds, the S&T 
budget is about 10 percent of that, which is a significant 
chunk of what I have for modernization. We recently just went 
through the process where we reshuffled some S&T funding away 
from near-term S&T back into basic research, which is really 
what you are talking about, in terms of getting after 
requirements that reach for technology for the 2030s and 
beyond. And we have partnerships throughout this country. I can 
think of--I was just down in Arizona State. We have a 
partnership at Arizona State. We have partnerships all through 
North Carolina. The ones in California are obviously very, very 
important to us, given the tech base out there.
    But I can't--and General Ostrowski may come up with 
something--but we understand the importance of the S&T funding 
for our future.
    General Ostrowski. General Murray, I would agree 
completely. And I want to thank all Members of Congress for the 
additional $800 million that was placed in the 2017 budget with 
respect to the S&T portfolio.
    The use of academia, as well as commercial marketplace, is 
absolutely essential in getting after leading-edge technologies 
that are filling the gaps that we are encountering on a daily 
basis. These are extremely important partnerships. There is no 
intent whatsoever to cut them off. And the ability to expand 
them is only a function of money.
    Mr. Carbajal. Thank you very much. I yield back.
    Mr. Turner. I want to thank our witnesses and our members 
for the fact that we have had an incredibly efficient sprint of 
a hearing. We are going to actually make the votes. We have 
Wittman and Rosen next. And we have--Brown, I am sorry--and how 
much time is left? There is 11:43 on the clock, so we have 
plenty of time. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thanks so 
much for joining us today. Thanks for your service.
    Lieutenant General Thomas, I want to go to you. For years, 
between sequestration and BCA [Budget Control Act], we have had 
our ability limited to really provide the necessary resources I 
think in all levels for our men and women in the United States 
Marine Corps. And I think this year's FY 2018 budget still 
falls well short of where we need to be to make up for lost 
ground from years past.
    And I want to go to a particular line in this year's budget 
that I would like to get your perspective on. The line in this 
year's budget says this: It says this budget reflects hard 
choices that the Marines made to protect readiness largely at 
the cost of modernization and infrastructure sustainment.
    I believe that budgets need to be driven by strategy, not 
vice versa. And I am deeply concerned about there being a bill 
payer for readiness, especially when we look at infrastructure 
sustainment, modernization. That is like eating our seed corn. 
To me, that is deeply troubling.
    Tell me this. If you were to be given additional resources 
this year, what would the priorities of the Marine Corps be to 
pipeline those resources to areas such as modernization and 
infrastructure sustainment?
    General Thomas. Thank you, Congressman. You know, our 
priorities are the Amphibious Combat Vehicle, Joint Light 
Tactical Vehicle, the G/ATOR radar, and then aircraft such as 
the CH-53K and MV-22, and there are others. We, again, as I 
alluded to, we have got programs in place. You know, additional 
funding would be used to accelerate those programs.
    And to your point about sacrificing modernization for near-
term readiness, that is something that has been a challenge for 
us over the past few years. We feel that this request improves 
on that somewhat. We have increased our ground modernization 
program by about 60 percent, up to $2.4 billion, significant 
investment for us. But now it is just a matter about getting 
out of the old metal as soon as we possibly can.
    Mr. Wittman. Give your perspective, too. You talked a 
little bit about ACV. This year's budget does put some 
additional dollars into ACV for test vehicles and then 26 low-
rate production vehicles for ACV. Give me your perspective 
about how the Marine Corps came to 26 vehicles as the initial 
low-rate production number.
    General Thomas. This coming year, in 2018, is where down-
select, you know, will occur. And so once that occurs, then we 
anticipate our request to increase. We are actually--the 
program is doing well. It is on a pretty tight timeline to make 
the IOC [initial operating capability] of 2020. So it is fully 
funded. We need to do down-select. And once we have done that, 
we can't really accelerate IOC any earlier, but we can 
accelerate FOC [full operating capability], which would be 
funds starting next year.
    Mr. Turner. Time is expired. Mr. Brown.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Brown. Thank you, Mr. Chairman. Both of my questions go 
to the Army. I will ask both of them. You can answer it and 
allocate the time accordingly. One, regarding the Mobile 
Protected Firepower vehicle program, and the question is, you 
have got the Bradley fighting vehicle. Why are we going to the 
Mobile Protected Firepower [MPF] program? Is it mobility, 
lethality, survivability?
    Next question is on the CH-47. Army has a requirement for 
14 more of those between the CH-47 and the MH-47 variant for 
SOCOM [Special Operations Command]. You are only asking for 
six. So that is--you know, a few less than your requirement. 
What is the impact on the mission? And do you anticipate an 
impact on your vendor in terms of their ability to keep pace 
with what you will eventually need? Thank you.
    General Murray. Thank you, Congressman. So on the MPF, it 
is a completely different role than the Bradley plays. So it 
is--MPF is, in fact, a light tank. And we are targeting 
lethality between a 105- and a 120-millimeter cannon. And it is 
really not to go up against other tanks, but it is to maintain 
momentum of our light forces that we begin to field other 
vehicles to our infantry brigade combat teams. So it is not an 
infantry carrier. It is, in fact, a light tank that is, in 
fact, about the same weight as a Bradley, but it carries a much 
bigger punch and a little bit more frontal armor protection.
    And then the CH-47, I will turn that over to General 
Ostrowski.
    General Ostrowski. Yes, sir. The multiyear that we had with 
the Chinook ends in 2017. And we are, indeed, 14 short of our 
authorized amount within the Army. The intent going forward is 
to move to the Block II, CH-47F Block II, which provides 
greater capability over the current Block I.
    However, when we do that particular venue, we know that we 
are going to be short in terms of the number of aircraft that 
we are able to buy each year. For instance, in 2018, you said 
yourself, sir, about six aircraft. Two of these are the 47F 
Block Is and two of these are the variant for SOCOM. That does 
not get better through 2020 to 2022; not until 2023 do we get 
back up to the point where we are producing the amount of 
aircraft from that facility that we have been in the past. So 
it is concerning.
    Again, it is a combination of a transition to a new 
platform in terms of the capability. Again, same platform, 
greater capability. And a combination of doing that and the 
money that we have to invest in that particular upgrade to the 
current platform that is putting us in this position.
    We are constantly working with the vendor, as well as 
partner nations in FMS [Foreign Military Sales] sales. This 
particular year, in 2017, the reason that we were able to 
execute the multiyear was because we had help from another 
country that brought us up to the level to get to the multiyear 
amount. So we will continue to push hard for that, because, 
again, we are running out of the ability to help that vendor 
just by our own buys alone.
    Mr. Brown. Thank you, Mr. Chairman. Thank you.
    Mr. Turner. Time is expired. Gentlemen, we are looking 
forward to the unfunded requirements lists that are coming out. 
And I would ask, as a continuing obligation for this hearing, 
if when they are available, if you would each provide to us 
your written perspectives on those, as we might be able to 
evaluate them as we go forward. So assume it as a question that 
has been asked to you here to get your thoughts and input 
concerning the unfunded list and the unfunded requirements 
list, and we will look forward to that if you could provide us 
that as soon as possible, as those might become available. 
Thank you.
    [Whereupon, at 4:21 p.m., the subcommittee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                              May 24, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 24, 2017

=======================================================================

      
      
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 24, 2017

=======================================================================

    

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. The Vice Chief of Staff of the Army in his testimony at 
the February 7th full committee hearing indicated Air and Missile 
Defense (AMD) as a top capability gap to address the urgent operational 
needs of combatant commanders and mitigate current threats. How does 
the FY18 budget request address this critical capability gap?
    General Murray. The Army Fiscal Year 2018 (FY18) budget request 
addresses the Air and Missile Defense (AMD) capability gap by 
increasing procurement of critical systems and by beginning a Service 
Life Extension Program (SLEP) for Stinger missiles. For instance, we 
requested funding to begin procurement of AIM9X missiles (196), begin a 
Service Life Extension Program for Stinger missiles (1,440), and 
continue development of the Integrated Battlefield Control System, 
Indirect Fire Protect Capability, and an improved Lower Tier AMD 
Sensor. In support of developing a Maneuver-Short Range Air Defense or 
M-SHORAD capability, the FY18 budget request supports advancing a near 
term solution that considers the results of the recent tech demo event 
and initiatives in support of the M-SHORAD Family of Systems Analysis 
of Alternatives.
    Mr. Turner. What are your major concerns with munitions? What are 
you doing to address shortfalls?
    General Murray. My major concerns with munitions include our 
inability to support multiple theater requirements while also meeting 
the training demand for munitions. For example, in Fiscal Year 2018 
alone, the Army identified a $938 million shortfall in conventional 
munitions which range from small arms (e.g., 9mm and 5.56mm) to crew 
served weapons (e.g., .50 cal) to mortar and artillery munitions. I am 
also concerned that our aging munitions industrial base cannot support 
increased operational requirements in an efficient, cost effective 
manner while ensuring the protection and safety of employees and the 
environment. Finally, we lack sufficient capacity to produce the needed 
quantity of precision and near precision munitions. To address these 
shortfalls, the Army is making munitions a top priority and is moving 
resources from lower priority programs to increase funding for 
munitions. For instance, the FY18 budget request includes 6,000 Guided 
Multiple Launch Rocket System missiles, an increase of almost 1,800 
missiles over FY17's request. The FY18 request also includes 998 
Hellfire missiles, an increase of 840 missiles over FY17. However, 
fiscal constraints will not allow the Army to sustain the level of 
investment required to meet demand for munitions across the Future 
Years Defense Program. For example, we would need to invest over $600 
million more per year to reach the maximum production rate for the 
Patriot Advanced Capability Missile Segment Enhancement missile, a key 
Combatant Commander required munition. The Army continues to look for 
opportunities to close these gaps through reprioritization of funds, 
increasing the efficiency of the munitions industrial base, and closely 
monitoring expenditures of critical munitions.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. What technological advances have been made, including 
in ensuring situational awareness and intelligence, surveillance, and 
reconnaissance (ISR) capabilities, to mitigate operational risk and 
enhance force protection for soldiers in small tactical units? How does 
the Army envision using resources included in the FY18 budget request 
and across the Future Years Defense Program (FYDP) to deploy these new 
technologies in the field?
    General Ostrowski. The Army has recently made several technological 
advances to mature components and subsytems supporting small aerial and 
ground ISR platforms which have the capability to mitigate operational 
risk and enhance force protection for soldiers in small tactical units. 
This research included developing payload standards, increasing image 
resolutions, reducing audio signature, balancing power subsystems to 
increase distance and duration capabilities, and developing software 
algorithms which optimize performance. The Army will continue to 
advance these technologies by researching platform agnostic components 
and sub-system technologies which can be shared with multiple industry 
partners. The advanced capabilities planned consist of research to 
enable: (1) operations in GPS-denied environments, (2) environmental 
sensing leading to collision avoidance, and (3) autonomy leading to 
collaborative behaviors (i.e. swarming) and (4) man-machine interfaces 
which will enable more autonomous operations, with limited operator 
intervention. Longer term basic and applied research is focusing on 
small unit sensor systems, sensor data analytics, communications, 
mission command and positioning, and navigation and timing in Global 
Positioning System (GPS) denied environments. These will be leveraged 
to further advance these systems, examples include: (1) GPS alternative 
technologies that provide state-of-the-art performance for soldier 
position and navigation; (2) Acoustic, radio frequency (RF), and 
electro-optic sensors and algorithms to detect and locate weapons fire 
and unmanned aerial systems in complex, noisy environments; (3) Stand-
off sensors that provide non-line-of-sight situational awareness of 
power-grid activities in real time; Related enabling science and 
technology research which is being leveraged by these small aerial and 
ground ISR platforms programs include converged hardware and software 
architectures, cyber capabilities to the Corps and below, to include 
small unit/squad, technologies for distributed, networked sensing; jam-
resistant soldier-borne antennas; adaptive protocols for resource-based 
data acquisition and signal processing on sensor networks; automated 
analytics for detection, tracking, and classification of adversaries; 
and techniques to mitigate network and sensor effects from jamming, 
spoofing, attrition, and non-cooperative emitters. The Army has 
designated tactical situational awareness and mission command for small 
units as a high priority research objective for FY18-24.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. The Army has embraced a non-developmental item (NDI) 
approach to the procurement of networked communications modernization--
an approach that Congress has encouraged and fully supports. However, 
the Army has made changes to its requirements for certain programs, and 
has also chosen to reevaluate its needs, leading to delays in the 
fielding of important, modernized communications items to the 
warfighter. While Congress understands the importance of evaluating 
needs, the delays in the procurement and fielding of important 
communications items is concerning. First, the delay forces our 
soldiers to continue to rely on outdated and potentially vulnerable 
capabilities. Second, it discourages industry from investing more of 
their own funds in additional capability when there is an unclear path 
to an actual acquisition and return on said investment.
    Given the ongoing studies the Army is conducting regarding its 
network, is it safe to say that changes to the current strategy will be 
made? When will the Army finalize and release any changes to this 
strategy? Additionally, are you comfortable with stating that changes 
in decisions to procurement strategies regarding tactical network 
modernization will not lead further delay putting tactical radios into 
soldiers' hands, or inhibit our tactical commutations readiness 
capability?
    General Murray and General Ostrowski. Given the ongoing studies 
that the Army is conducting regarding the network, it is safe to say 
that the Army's current network strategy and procurement approach will 
adjust to appropriately address our operational needs and provide 
opportunities for greater use of industry innovation. What will not 
change is the Army's use of Non-Developmental network technologies and 
the full and open competitive process to support our procurement 
activities. Regarding adjustments in procurement strategies, as 
previously noted, the Army intends to continue leveraging the NDI 
approach with a full and open competitive process to support 
procurement of our tactical network systems. However, the methodology 
by which we assess/evaluate and determine the capabilities for our 
overall network requirements will shift from `lowest price, technical 
acceptable' toward a ``best value'' methodology. Changing to a best 
value acquisition strategy will allow for greater opportunity to 
maximize industry potential without binding ourselves to a rigid set of 
parameters that limit flexibility and/or innovation that have proven to 
result in program delays in the past. While no one can truly state for 
certain that all delays will be averted, the adjustments to our network 
strategy and a shift to a ``best value'' approach aim to reduce future 
programmatic delays, ensure greater flexibility for the Army, improve 
the use of industry innovation and provide our warfighter with the best 
operational capability available.
    Mr. Brown. The Navy and Army both have major robotics procurements 
coming in the next 1-2 years; programs such as Man Transportable Robot 
Systems Increment II (MTRS Inc II), Common Robotics Systems (I), and 
Advanced Explosive Ordnance Disposal Robot System (AEODRS). What is the 
strategy for integrating these capabilities into the field and into the 
larger military context beyond how they are being used now? 
Additionally, although the defense budget is going up overall, it's not 
necessarily being allocated in a way that ensures that service men and 
women are getting the newest, most capable technology in areas such as 
robotics. For example, it is my understanding the Marines are looking 
at purchasing robots initially developed in 2002 to meet their 
Explosive Ordnance Disposal capabilities because of challenges in the 
Advanced Explosive Ordnance Disposal Robot System Program. I would like 
to hear from all the panelists on this question, but particularly from 
BG Shrader.
    General Murray and General Ostrowski. The Army's strategy for 
robotic systems is to integrate new technologies into our organizations 
to help ensure overmatch against increasingly capable enemies. Based 
upon the expanding roles for robotic systems beyond EOD, the Army chose 
to build upon the Navy's open source modular architecture and pursue 
lighter weight, lower cost, common chassis solutions using modular 
mission payloads to meet the needs of diverse organizations across the 
Army. This common chassis strategy provides greater efficiency for 
integrating these capabilities into the larger Army and reduced cost 
through economies of scale by buying thousands of similar systems 
rather than hundreds of multiple types of unique systems. The Army's 
Interoperability Profile (IOP) standards enable the development and 
selective upgrade of interchangeable modular mission payloads to 
perform specific warfighter functions across multiple platforms. This 
approach specifically enables the Army to focus more on its Robotic 
investments where they have the greatest impact: Updating 
interchangeable mission payloads with newer, increasingly capable 
technology. For example, a MTRS Inc 2 may be configured with a suite of 
EOD payloads or a suite of CBRN sensors. The Army IOP standards are 
fully compatible with the Navy's AEODRS standards. The Army anticipates 
the production of the MTRS Inc 2 in Fiscal Year 2019 and the Common 
Robotic System-Individual (CRS-I) in Fiscal Year 2021. Additionally, to 
ensure that Soldiers get the newest, most capable technology within 
current fiscal constraints, the Army is collaborating with our industry 
partners. The Defense Innovation Unit Experimental (DIUx) organization 
has facilitated the Army's outreach to non-traditional industry 
partners on the cutting edge of technology. This approach enables the 
rapid delivery of prototype capabilities to the Warfighter using a buy-
try-decide methodology through newly expanded Other Transaction 
Authority (OTA).
    Mr. Brown. The Navy and Army both have major robotics procurements 
coming in the next 1-2 years; programs such as Man Transportable Robot 
Systems Increment II (MTRS Inc II), Common Robotics Systems (I), and 
Advanced Explosive Ordnance Disposal Robot System (AEODRS). What is the 
strategy for integrating these capabilities into the field and into the 
larger military context beyond how they are being used now? 
Additionally, although the defense budget is going up overall, it's not 
necessarily being allocated in a way that ensures that service men and 
women are getting the newest, most capable technology in areas such as 
robotics. For example, it is my understanding the Marines are looking 
at purchasing robots initially developed in 2002 to meet their 
Explosive Ordnance Disposal capabilities because of challenges in the 
Advanced Explosive Ordnance Disposal Robot System Program. I would like 
to hear from all the panelists on this question, but particularly from 
BG Shrader.
    General Thomas and General Shrader. [The information referred to 
was not available at the time of printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BANKS
    Mr. Banks. LTG Murray, the Army G8 validated an operational needs 
statement (ONS) for a hydra rocket penetrating warhead for the field 
guided rocket system back in October, but still requires action on 
resourcing a material solution to the Apache helicopter war fighters. 
The USAF and USMC validated similar ONS and are in qualification 
programs to provide guided rockets with a penetrating warhead with 
incendiary effects that is already in the DOD inventory and in 
operational use by SOCOM. Is it not true that this capability is 
specifically noted in the Vice Chief of Staff of the Army's (VCSA) 2016 
approved munitions strategy? Considering the high cost of guided 
missile systems such as Hellfire and considering that hydra rockets can 
now be precisely guided to a target, what is the Army's plan to provide 
this capability to the warfighter and take full advantage guided rocket 
technology that will provide more flexibility to the operational user 
to engage a broader spectrum of targets?
    General Murray. Both the Chief of Staff of the Army (CSA) and the 
Vice Chief of Staff of the Army (VCSA) continue to place special 
emphasis on the development, procurement and positioning of critical 
munitions requested by the Combatant Commanders. In the case of the 
Operational Need Statement (ONS) for a penetrating warhead (M282) on an 
Advanced Precision Kill Weapon System (APKWS) equipped Hydra rocket, 
also known as a ``guided'' Hydra rocket, a request for the resources to 
develop, qualify and field the weapon system was recently submitted as 
priority numbers eleven and twelve on the CSA's Fiscal Year 2018 (FY18) 
Unfunded Requirements list (reference numbers 0978 and 0976). The 
resource requirements identified in the UFR take advantage of other 
services' integration and qualification efforts where applicable. In 
the meantime, the Army is procuring and fielding the APKWS guidance 
sections with a widely used High Explosive (HE) warhead (M151) in 
support of our Soldiers in current areas of operations. The Army plans 
to continue procurement of 2,000 APKWS per year beginning in FY18 
leveraging an existing Navy contract. A FY18 UFR (reference number 
0978) has also been submitted to double the number of APKWS the Army 
procures (from 2,081 to 4,000) that will take advantage of investments 
in the production line that will increase capacity for all services. 
For the Army, APKWS is qualified on the AH-64D/E Apache and is 
currently constrained to operations in the U.S. Army Central Command 
Area of Responsibility by an Urgent Materiel Release. Full Materiel 
Release, allowing unconstrained use of the weapon system, is expected 
in FY19.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. The Marine Corps has been evaluating Australian 
technology through the Foreign Comparative Testing Program for Rifle 
Accessory Control Units (RACUs) that would allow troops to manage their 
electronic and battle management systems while keeping hands-on 
situational awareness at all times. This technology, already used 
abroad, if implemented within the U.S. military, would allow troops to 
keep their hands on their weapon with heads-up and eyes on the target 
all while being able to manage incoming and outgoing communications 
with other systems. It is my understanding that the Marine Corps has 
exercised its option under the existing testing and evaluation contract 
to go to Phase 3 of testing, which includes additional communications 
management capabilities. It is also my understanding that the Marine 
Corps supports obtaining a significant number of RACU units so that 
additional demonstration can take place at the Battalion level and to 
investigate further this technology's use with systems such as drones, 
re-supply robots, heads-up displays on night vision goggles, and the 
like.
    (1) Does the Marine Corps support additional advanced systems 
testing and the production of the RACU units during Fiscal Year 2018 
and beyond to support such testing; and (2) What is the Marine Corps 
assessment to date of the benefits of this technology as a part of 
troop modernization efforts?''
    General Shrader. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. I am not sure how you are soliciting for a new system 
without a new authorization. I was told that the initial plan was to 
purchase this new system using Operation and Maintenance funds, now I 
understand that new systems should be purchased with Procurement funds. 
Please clarify your authority for the RFP and whether a new start is 
required.
    General Shrader. [The information referred to was not available at 
the time of printing.]
    Mr. Wittman. The Marine Corps states that it wants a high glide 
canopy, which covers significantly more horizontal distance when jumped 
from the same altitude as the currently fielded system. Is a high glide 
canopy truly a requirement? If so, where in the Corps did this 
requirement originate and how was it approved? Also, does the Marine 
Corps have all of the other equipment (oxygen bottles, tandem 
parachutes, and guided cargo parachutes) required in order to employ 
the high glide canopy?
    General Shrader. [The information referred to was not available at 
the time of printing.]
    Mr. Wittman. The Marine Corps has a large number of PARIS, Special 
Application Parachute (``SAP'') canopies that are high glide in 
inventory but that are seldom used. Why is the Corps fielding a new 
parachute when it already has parachutes with high glide canopies?
    General Shrader. [The information referred to was not available at 
the time of printing.]
    Mr. Wittman. When the Army purchases parachutes, it relies on the 
engineers at U.S. Army Natick Soldier Systems Center to develop a 
specification addressing the military's unique requirements. Instead of 
using a military specification, it appears that the Marine Corps is 
using the Parachute Industry Association (``PIA'') specification, which 
is for sports parachutists jumping from relatively slow moving planes 
and without the equipment that military parachutists carry. What 
assurances does the Marine Corps have that the PIA specification will 
get the Marine Corps the gear they need?
    General Shrader. [The information referred to was not available at 
the time of printing.]
    Mr. Wittman. I understand that the Marine Corps plans on conducting 
a ``paper'' down select and only test the parachute once first articles 
are received. I believe that testing is critically important. I would 
like your thoughts on why testing is given short shrift in this 
procurement.
    General Shrader. [The information referred to was not available at 
the time of printing.]
    Mr. Wittman. The sports parachute industry has been unable to 
develop reliable high glide canopies. The Army has struggled with the 
RA-1 parachute and grounded the parachute for several months last year. 
The reliability challenge, I am told, is one of aerodynamics. High 
glide canopies have to be large and relatively flat. This geometry 
requires longer lines and increases the opportunity for malfunctions 
especially lines on top of the canopy. Why is the Marine Corps 
considering going from a very reliable system to one that because of 
the geometry is almost certainly less reliable? Do you have safety 
concerns?
    General Shrader. [The information referred to was not available at 
the time of printing.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
